RECORD NUMBER:
__________________________________________
______
United States Supreme Court
JASON AVERY ANDERSON,
Petitioner ,
- V. HAROLD W. CLARKE, DIRECTOR OF THE
VIRGINIA DEPARTMENT OF
CORRECTIONS,
Respondent
PETITION FOR CERTIORARI FROM JUDGMENT
OF THE VIRGINIA SUPREME COURT
PETITION FOR CERTIORARI
DALE R. JENSEN
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VIRGINIA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

PETITION FOR CERTIORARI

Questions Presented for Review
A.
Is Anderson is being subjected to cruel and
unusual punishment in violation of the
Eighth Amendment to the United States
Constitution because Va. Code Section
18.2-361 unconstitutional as applied to the
Petitioner?
B.
Is Anderson is being subjected to cruel and
unusual punishment in violation of the
Eighth Amendment to the United States
Constitution because Va. Code Section
18.2-366 unconstitutional as applied to the
Petitioner?
C.
Was Anderson’s right to the effective
assistance of counsel, secured by the Sixth
Amendment to the United States
Constitution was violated when Anderson’s
trial counsel failed to challenge the
constitutionality of the statutes under
which Anderson was convicted and
sentenced?

i

PETITION FOR CERTIORARI

List of All Parties to the Proceeding
All parties are as listed in the caption hereof. Jason
Avery Anderson is an individual for which no
corporate disclosure statement is required by Rule
29.6.

ii

PETITION FOR CERTIORARI

TABLE OF CONTENTS
Page
Questions Presented for Review
i
List of All Parties to the Proceeding
ii
I. Citations of the Official and Unofficial
Reports of the Opinions and Orders Entered
in this Case by Courts
1
II. Statement of the Basis of Appellate
Jurisdiction
1
III. Constitutional Provisions and Statutes
Involved in the Case
1
IV. Statement of the Case
2
A. Procedural Posture
2
B. Statement of Facts
4
V. Argument
6
VI. Overall Conclusion
37
App. A Order Denying Petition
App. B Petition for Writ
App. C Memo in Spt of Petition
App. D Memo in Opp to Petition
App. E Declaration of Caitlin
Anderson

iii

App. A 1-6
App. B 1-10
App. C 1-26
App. D 1-30
App. E 1-3

PETITION FOR CERTIORARI

TABLE OF CASES
Constitution
Sixth Amendment
Eighth Amendment
Fourteenth Amendment

Page
1-2
1-2
2

Statutes
28 U.S.C. § 1257
AS code 25.05.021
Va. Code §18.2-361
Va. Code §18.2-366

1
11
passim
passim
Cases

Duncan v. Louisiana
391 U.S. 145, 88 S. Ct. 1444 (1968)
12
Eisenstadt v. Baird
405 U.S. 438, 92 S. Ct. 1029 (1972)
12, 25
Ex parte Siebold
100 U.S. 371 (1880)
28-29
Ferguson v. Commonwealth
No. 0060-19-3, 2020 Va. App. LEXIS 52 (Ct. App.
Feb. 25, 2020)
20-21, 25
Griswold v. Connecticut
381 U.S. 479, 484-486, 85 S. Ct. 1678 (1965) 12
Ingleson v. Burlington Med. Supplies, Inc.
5141 F. Supp. 3d 579 (E.D. Va. 2015)
23
Lafler v. Cooper
132 S. Ct. 1376, 1384 (2012)
33-35
Lawrence v. Texas
539 U.S. 558, 123 S. Ct. 2472 (2003)
passim
MacDonald v. Moose
710 F.3d 154 (4th Cir. 2013)
7
Montgomery v. Louisiana
v

PETITION FOR CERTIORARI

136 S. Ct. 718 (2016)
29-30
Obergefell v. Hodges
135 S. Ct. 2584 (2015)
9, 12, 32
Penry v. Lynaugh
492 U.S. 302, 109 S. Ct. 2934 (1989)
28
Planned Parenthood of Southeastern Pa. v. Casey
505 U.S. 833, 112 S. Ct. 2791 (1992) 16-19, 27
Strickland v. Washington
466 U.S. 668, 687 (1984)
33-34, 36
United States v. United States Coin & Currency
401 U.S. 715, 91 S. Ct. 1041 (1971)
28
Secondary Sources
https://www.npr.org/2015/07/26/426434619/sortingthrough-the-numbers-on-infidelity
21

vi

PETITION FOR CERTIORARI

I.

Citations of the Official and Unofficial

Reports of the Opinions and Orders Entered
in this Case by Courts
The Virginia Supreme Court entered its Order
finally dismissing the Petition for Writ of Habeas
Corpus on December 9, 2020. The Order was not
entered into an official report.

II.

Statement of the Basis of Appellate

Jurisdiction
The Virginia Supreme Court entered its
Judgment on December 9, 2020.
This Court has appellate jurisdiction in this
appeal pursuant to 28 U.S.C. § 1257.

III.

Constitutional Provisions and Statutes

Involved in the Case
The Sixth Amendment, the Eighth

Amendment and the Fourteenth Amendments to the
United States Constitution are involved in this case.
Anderson’s convictions should be vacated
because Va. Code § 18.2-361 and 18.2-366, which are
involved in this case, are unconstitutional as applied
to Anderson, which implicates the Sixth Amendment,
the Eighth Amendment and the Fourteenth
Amendments to the United States Constitution.

IV.

Statement of the Case
A. Procedural Posture
On December 11, 2018 Anderson was indicted

on five counts of sodomy with a family member
under Va. Code Section 18.2-361 and five counts of
incest with own child under Va. Code Section 18.2366. On February 8, 2019 Anderson entered guilty
pleas to four counts of sodomy with a family
member under Va. Code Section 18.2-361 and four

Petition for Certiorari

Page 2

counts of incest with own child under Va. Code
Section 18.2-366. Orders of nolle prosequi were
entered on the other two counts pursuant to a plea
agreement. On April 12, 2019 Anderson was
sentenced to ten (10) years for each of the eight
counts with all but five years of the sentences
suspended.
On January 7, 2020, Anderson filed a Petition
for Writ of Habeas Corpus with the Virginia
Supreme Court seeking to vacate the judgments
against Anderson because Va. Code § 18.2-361 and
18.2-366 are unconstitional as they were applied
against Anderson
The Virginia Supreme Court denied
Anderson’s Petition for Writ of Habeas Corpus on
December 9, 2020.
This Petition for Writ of Certiorari is filed
seeking reversal of the denial of the Virginia

Petition for Certiorari

Page 3

Supreme Court.

B. Statement of Facts
At all relevant times both Anderson and
Caitlin Elizabeth Anderson (“Caitlin”) were adults.
Caitlin is the adult adopted daughter of
Anderson. Anderson and C.A. are not biologically
related.
When Caitlin was a nineteen year-old adult,
she began having a sexual relationship with
Anderson. Caitlin Declaration at ¶ 3. At times
Caitlin would to things to get Anderson to have sex
with her. Caitlin Declaration at ¶ 5. Anderson never
forced Caitlin to have sex with him. Caitlin
Declaration at ¶ 6.
Contrary to the bald and unevidenced
misrepresentations of the Commonwealth’s
Attorney at Anderson’s plea and sentencing hearing,

Petition for Certiorari

Page 4

Caitlin is a competent adult that now lives
independently and was more than capable of
consent at the time of her relationship with
Anderson’s.
On December 11, 2018 Anderson was indicted
on five counts of sodomy with a family member
under Va. Code Section 18.2-361 and five counts of
incest with own child under Va. Code Section 18.2366. On February 8, 2019 Anderson entered guilty
pleas to four counts of sodomy with a family
member under Va. Code Section 18.2-361 and four
counts of incest with own child under Va. Code
Section 18.2-366. Orders of nolle prosequi were
entered on the other two counts pursuant to a plea
agreement. On April 12, 2019 Anderson was
sentenced to ten (10) years for each of the eight
counts with all but five years of the sentences
suspended.

Petition for Certiorari

Page 5

V.
I.

Argument
This Court Should Grant Certiorari
A. Fundamental Rights Implicated
Support Granting Certiorari
The application of the Virginia Criminal

statutes in the arrest and conviction of Anderson
implicate fundamental rights of personal intimate
conduct that should be beyond the purview of the
government. As eloquently stated by this Court
(emphasis added):
Liberty protects the person from
unwarranted government
intrusions into a dwelling or other
private places. In our tradition the State
is not omnipresent in the home. And
there are other spheres of our lives and
existence, outside the home, where the
State should not be a dominant
presence. Freedom extends beyond
spatial bounds. Liberty presumes an
autonomy of self that includes
freedom of thought, belief,
expression, and certain intimate
conduct. The instant case involves
Petition for Certiorari

Page 6

liberty of the person both in its
spatial and more transcendent
dimensions.

Lawrence v. Texas, 539 U.S. 558, 562, 123 S. Ct.
2472, 2475 (2003).
In Lawrence, this Court plainly held that
statutes criminalizing private acts of consensual
sodomy between adults are inconsistent with the
protections of liberty assured by the Due Process
Clause of the Fourteenth Amendment. MacDonald

v. Moose, 710 F.3d 154, 163 (4th Cir. 2013) (citing
Lawrence, 539 U.S. at 578, 123 S. Ct. at 2484).
The Virginia statutes at issue in this case as
applied against Anderson in this case are
unconstitutional in view of Lawrence and

MacDonald. The acts of Anderson and C.A. were
consensual acts between adults with the
protections of liberty assured by the Due Process
Clause of the Fourteenth Amendment. Id.

Petition for Certiorari

Page 7

Accordingly, the statutes at issue in this case were
applied unconstitutionally against Anderson.

Lawrence, 539 U.S. at 578, 123 S. Ct. at 2484.
Because Anderson and Caitlin are not
biologically related, even if the Commonwealth had
an interest in sexual unions based upon biology (a
premise that Anderson contests), increased risks of
birth defects from consanguinity simply did not
exist in this case.
Although most states and provinces of the
United States have laws against incest in some
form, many consider unions between adults that
are not biologically related legal. Those states and
provinces include, Alaska, California, Michigan,
Minnesota, Mississippi, Nevada, New Jersey, New
York, North Dakota, Northern Mariana Islands,
Oklahoma, Oregon, United States Virgin Islands,
and Washington.

Petition for Certiorari

Page 8

The need for declaring the statutes at issue
in this case unconstitutional is readily apparent
from the states in which such unions are legal. For
example, a father and adopted daughter that are
not biologically related can be legally married in
Alaska, but if that same couple that had legally
married in Alaska were to subsequently move to
Virginia, that same couple could be criminally
convicted and incarcerated. Such a result is in clear
violation of the equal protection provisions of the
Fourteenth Amendment. See, Lawrence in view of

Obergefell v. Hodges, 135 S. Ct. 2584 (2015).
Many other countries in the world consider
unions between consenting adults legal regardless
of family relationships, adopted or otherwise. The
list of countries that consider such unions legal
include Argentina, Belgium, Brazil, France, India,
Israel, Ivory Coast, Japan, Latvia, Lithuania,

Petition for Certiorari

Page 9

Luxembourg, Netherlands, Portugal, Russia,
Serbia, Slovenia, South Korea, Spain, Thailand,
and Turkey.
Other countries consider unions between
adult family members that are not biologically
related legal. Those countries include Canada,
Ethiopia, and Taiwan.
Here, Anderson and Caitlin were adults that
became involved in an intimate relationship. That
relationship should have been protected conduct
under Lawrence and its progeny. Yet, instead of his
liberty being protected as a basic right, Anderson
was prosecuted, designated as a sex criminal, and
sentenced to prison.
The statutes under which Anderson was tried
and convicted should be held unconstitutional to the
extent that they have been applied against
consenting adults as happened in Anderson’s case.

Petition for Certiorari

Page 10

B. Equal Protection Support Granting
Certiorari
The striking differences between state laws
warrant intervention by this Court. For example,
Alaska allows marriages between adults so long as
the marriage will not be bigamous or the parties
“are more closely related to each other than the
fourth degree of consanguinity, whether of the
whole or half blood, computed according to rules of
the civil law. AS code 25.05.021.
Accordingly, because they are not biologically
related Anderson and C.A. could have not only
engaged in sexual relations in Alaska, but also are
eligible to marry under the law of Alaska. Yet, had
they been married in Alaska and then moved to
Virginia, both parties to the marriage would be

Petition for Certiorari

Page 11

guilty of felonious conduct and subject to an
extended prison sentence.
As eloquently stated by this Court (emphasis
added):
Under the Due Process Clause of the
Fourteenth Amendment, no State shall
“deprive any person of life, liberty, or
property, without due process of law.”
The fundamental liberties protected by
this Clause include most of the rights
enumerated in the Bill of
Rights. See Duncan v. Louisiana, 391
U.S. 145, 147-149, 88 S. Ct. 1444, 20 L.
Ed. 2d 491 (1968). In addition these
liberties extend to certain
personal choices central to
individual dignity and autonomy,
including intimate choices that
define personal identity and
beliefs. See, e.g., Eisenstadt v. Baird,
405 U.S. 438, 453, 92 S. Ct. 1029, 31 L.
Ed. 2d 349
(1972); Griswold v. Connecticut, 381
U.S. 479, 484-486, 85 S. Ct. 1678, 14 L.
Ed. 2d 510 (1965).

Obergefell v. Hodges, 576 U.S. 644, 663-65, 135 S.
Ct. 2584, 2597-98 (2015)

Petition for Certiorari

Page 12

The statutes under which Anderson was tried
and convicted should be held unconstitutional and
violative of the Due Process Clause of the
Fourteenth Amendment to the extent that they
have been applied against consenting adults as
happened in Anderson’s case.

II. Is Anderson is being subjected to cruel
and unusual punishment in violation of
the Eighth Amendment to the United
States Constitution because Va. Code
Section 18.2-361 unconstitutional as
applied to the Petitioner?
In pertinent part Va. Code § 18.2-361 states:
Any person who performs or causes to
be performed cunnilingus, fellatio,
anilingus, or anal intercourse upon or
by his daughter or granddaughter, son
or grandson, brother or sister, or father
or mother is guilty of a Class 5 felony …
For the purposes of this section, parent
includes step-parent, grandparent
Petition for Certiorari

Page 13

includes step-grandparent, child
includes step-child, and grandchild
includes step-grandchild.
The plain language of Va. Code § 18.2-361
provides no exception for cases such as that of
Anderson where both Anderson and Caitlin were
consenting adults. The unconstitutionality is
particularly pronounced in this case because
Anderson and Caitlin were not biologically related.
The analysis from Lawrence is binding and
dispositive as to the unconstitutionality of Va. Code
§ 18.2-361 as it applies to Anderson.
As held in Lawrence:
Liberty protects the person from
unwarranted government intrusions
into a dwelling or other private places.
In our tradition the State is not
omnipresent in the home. And there are
other spheres of our lives and existence,
outside the home, where the State
should not be a dominant presence.
Freedom extends beyond spatial
bounds. Liberty presumes an autonomy
of self that includes freedom of thought,
belief, expression, and certain intimate
Petition for Certiorari

Page 14

conduct. The instant case involves
liberty of the person both in its spatial
and more transcendent dimensions.
539 U.S. at 562, 123 S. Ct. at 2475.
Here, Anderson was subjected to
unwarranted government intrusions into his home
solely to regulate his sexual activities with another
consenting adult. Such an intrusion violated
Anderson’s autonomy of self that includes freedom
of thought, belief, expression, and his intimate
conduct with another consenting adult.
As with the Petitioners in Lawrence, both
Anderson and Caitlin were adults at the relevant
time of the alleged offenses. As with the Petitioners
in Lawrence, their conduct was private and
consensual.
In invalidating a Texas sodomy statute as
unconstitutional, the Lawrence Court acknowledged
that adults may choose to enter upon relationships

Petition for Certiorari

Page 15

in the confines of their homes and their own private
lives and still retain their dignity as free persons.

Lawrence, 539 U.S. at 567, 123 S. Ct. at 2478.
Anderson is entitled to that same right to choose a
relationship with another consenting adult within
the confines of his own home and still retain his
dignity as a free person. When sexuality finds overt
expression in intimate conduct with another person,
the conduct can be but one element in a personal
bond that is more enduring. The liberty protected by
the Constitution allows persons the right to make
such choices. Id. Anderson had the right to make
such choices with Caitlin and Va. Code § 18.2-361 is
unconstitutional as it applies to the conduct for
which he was convicted.
In Planned Parenthood of Southeastern

Pa. v. Casey, 505 U.S. 833, 120 L. Ed. 2d 674, 112 S.
Ct. 2791 (1992), the Court reaffirmed the

Petition for Certiorari

Page 16

substantive force of the liberty protected by the Due
Process Clause. The Casey decision confirmed that
the laws and traditions of the United States afford
constitutional protection to personal decisions
relating to marriage, procreation, contraception,
family relationships, child rearing, and
education. Id., at 851, 120 L Ed 2d 674, 112 S Ct
2791. Anderson was and is entitled to constitutional
protection in his personal decisions relating to
procreation. In explaining the respect the
Constitution demands for the autonomy of the
person in making these choices, the Court stated as
follows:
These matters, involving the most
intimate and personal choices a person
may make in a lifetime, choices central
to personal dignity and autonomy, are
central to the liberty protected by
the Fourteenth Amendment. At the
heart of liberty is the right to define
one's own concept of existence, of
meaning, of the universe, and of the
mystery of human life. Beliefs about
Petition for Certiorari

Page 17

these matters could not define the
attributes of personhood were they
formed under compulsion of the State.
Ibid.
This case is legally indistinguishable for

Lawrence. As held in Lawrence (emphasis added):
The present case does not involve
minors. It does not involve persons
who might be injured or coerced or who
are situated in relationships where
consent might not easily be refused. It
does not involve public conduct or
prostitution. It does not involve
whether the government must give
formal recognition to any relationship
that homosexual persons seek to enter.
The case does involve two adults who,
with full and mutual consent from each
other, engaged in sexual practices
common to a homosexual lifestyle. The
petitioners are entitled to respect
for their private lives. The State
cannot demean their existence or
control their destiny by making
their private sexual conduct a
crime. Their right to liberty under
the Due Process Clause gives
them the full right to engage in
their conduct without
intervention of the government.
“It is a promise of the
Constitution that there is a realm
Petition for Certiorari

Page 18

of personal liberty which the
government may not
enter.” Casey, supra, at 847, 120 L Ed
2d 674, 112 S Ct 2791. The Texas
statute furthers no legitimate state
interest which can justify its intrusion
into the personal and private life of the
individual.
539 U.S. at 578, 123 S. Ct. at 2484.
In this case, Anderson has been charged,
convicted, and incarcerated for consensual conduct
that did not involve minors. It did not involve a
minor or anyone who was in a relationship in which
consent was not easily refused. Indeed, when Caitlin
decided to end the relationship with Anderson, she
was very able to do so. This case does not involve
public conduct or prostitution. Just as in Lawrence,
this case does involve two adults who, with full and
mutual consent from each other, engaged in
common sexual practices. Anderson is entitled to
respect for his private life. The Virginia statute

Petition for Certiorari

Page 19

furthers no legitimate state interest that can justify
its intrusion into the personal and private life of
consenting adults such as Anderson and Caitlin.
Virginia state court reasoning citing the
statute’s purported “protecting” of the family unit
and the marriage is erroneous on its face. See, e.g.,

Ferguson v. Commonwealth, No. 0060-19-3, 2020 Va.
App. LEXIS 52, at *7 (Ct. App. Feb. 25, 2020). Most
significantly, it is beyond dispute that there are
sexual infidelities between consenting adults in
Virginia that are far more prevalent and, in
aggregate, far more damaging to family units and
marriage than sexual relationships between
unrelated stepparents and the adult stepchildren.
For example, in recent years a website devoted
specifically to married people seeking sexual
relationships outside of marriage (the Ashley
Madison website) was the subject of nationwide news

Petition for Certiorari

Page 20

headlines. It was reported that (even five years ago)
there were no fewer than 37 million users that had
posted online profiles to that website. See, e.g.,
https://www.npr.org/2015/07/26/426434619/sortingthrough-the-numbers-on-infidelity. That same news
report cited research indicating that approximately
21 percent of men and 19 percent of women have
admitted to sexual infidelity. Id. These staggeringly
high numbers contrast with only a few consenting
adults that are prosecuted under the Virginia
statutes at issue in this case each year.
Significantly, the Ferguson opinion is
noticeably silent about other relationships that
would be equally are more damaging to marriages
and families than those at issue in this case. For
example, spouses sometimes elect to have sexual
relationships with their respective spouses adult
siblings. Such relationships are clearly protected

Petition for Certiorari

Page 21

under Lawrence. There is no evidence to suggest
that such relations have less serious impacts on the
marriages and families involved compared to
relationships between unrelated stepparents and
stepchildren. Another example exists when spouses
cheat on close friends of their respective spouses.
Such relationships are also clearly protected under

Lawrence. There is no evidence to suggest that such
relations have less serious impacts on the marriages
and families involved compared to relationships
between unrelated stepparents and stepchildren.
Moreover, the statute makes no exception for
cases in which the stepparent is single when sexual
relations take place. Even in cases where the other
parent or stepparent is no longer living, the conduct
would still be felonious under Virginia’s
unconstitutional statutes. Under some such

Petition for Certiorari

Page 22

scenarios no family unit or marriage would even
exist to be protected.
Significantly, there is no evidence or argument
presented that an adult consensual relationship with
a stepchild would be any more deleterious to a
marriage or family unit than any other form of
adultery, which conduct can never again be
considered criminal in view of the reasoning in

Lawrence. See, e.g., Ingleson v. Burlington Med.
Supplies, Inc., 141 F. Supp. 3d 579, 586 (E.D. Va.
2015).
Most significantly, Lawrence carved out no
exception for states in cases where family
relationships were involved. Lawrence did not
include in its analysis any discussion of whether
either of the two petitioners was married or had any
family relationship that might have been adversely
affected by their adult consensual relationship.

Petition for Certiorari

Page 23

Indeed, the United States Supreme Court explicitly
held that “[L]iberty presumes an autonomy of self
that includes freedom of thought, belief, expression,
and certain intimate conduct.” Lawrence, 539 U.S.
at 562, 123 S. Ct. at 2475. Justice Kennedy went on
to hold that the petitioners were free as adults to
engage in the private conduct in the exercise of their
liberty under the Due Process Clause of
the Fourteenth Amendment to the Constitution.

Lawrence, 539 U.S. at564, 123 S. Ct. at 2476. The
rights affirmed in Lawrence do not depend upon
whether others close to the persons involved in the
intimate conduct might be adversely impacted by
that conduct. Instead, the United States Supreme
Court held that “the right to make certain decisions
regarding sexual conduct extends beyond the marital
relationship.” Lawrence, 539 U.S. at 565, 123 S. Ct.
at 2477. Further (emphasis added):

Petition for Certiorari

Page 24

If the right of privacy means
anything, it is the right of
the individual, married or single,
to be free from unwarranted
governmental intrusion into
matters so fundamentally
affecting a person as the decision
whether to bear or beget a child.

Id. (citing, Eisenstadt v. Baird, 405 U.S. 438, 453, 92
S. Ct. 1029, 1038 (1972)).

Ferguson also cited to a sentence from
Lawrence indicating that cases involving “persons
who might be injured or coerced or who are situated
in relationships where consent might not easily be
refused” might require additional inquiry. Lawrence,
539 U.S. at 578, 123 S. Ct. at 2484. The Ferguson
opinion then makes a speculative and unevidenced
inference that somehow adult stepchildren are
“inherently” incapable of easily refusing to consent to
sexual advances of stepparents. This speculation is
erroneous in view of the plain language of Lawrence,
which clearly states (emphasis added):
Petition for Certiorari

Page 25

adults may choose to enter upon
this relationship in the confines
of their homes and their own
private lives and still retain their
dignity as free persons . When
sexuality finds overt expression in
intimate conduct with another person,
the conduct can be but one element in a
personal bond that is more enduring.
The liberty protected by the
Constitution allows homosexual
persons the right to make this
choice.
Id., 539 U.S. at 567, 123 S. Ct. at 2478.
As adults Caitlin and Anderson had the
freedom and right to choose each other as sexual
partners without having their choices undermined by
the government of the Commonwealth of Virginia.
Caitlin had a right to choose Anderson as her
sexual partner and, as an adult, the right to consent
to their relationship. Indeed, Caitlin would at times
do things to have Anderson to have sex with her.
Anderson never forced Caitlin to have sex with him.
Caitlin retained the right and ability to consent or

Petition for Certiorari

Page 26

refuse sex with Anderson and elected to have sex
with him.
In sum, it is the obligation of courts to define
the liberty of all, not to mandate their own moral
code. Id., 539 U.S. at 571, 123 S. Ct. at 2480 (citing,

Planned Parenthood, 505 U.S. at 850).
For all of the reasons stated herein,

Ferguson is erroneous, directly contrary to the
binding precedent of Lawrence, and is not valid for
precedential purposes.
Because Va. Code § 18.2-361 contains no
exception for consensual act between adults in the
privacy of their own homes, that statute is
unconstitutional as applied in Anderson’s case,
pursuant to Lawrence, and should be declared as
such.
The Virginia Supreme Court declined to even
address the constitutionality of the statute and

Petition for Certiorari

Page 27

rejected Anderson’s claims as to the
unconstitutionality of both Va. Code § 18.2-361 and
Va. Code § 18.2-366 because their constitutionality
was not challenged prior to the entry of a guilty plea.
This procedural dismissal is contrary to this
Court’s binding precedent and should be reversed.
Any statute defining criminal conduct, if
declared unconstitutional, is void ab initio. United

States v. United States Coin & Currency, 401 U.S.
715, 732-33, 91 S. Ct. 1041, 1050 (1971). Thus, a
conviction is void ab initio where “the conduct being
penalized is constitutionally immune from
punishment.” Id., 401 U.S. at 724. See also, Penry v.

Lynaugh, 492 U.S. 302, 330, 109 S. Ct. 2934, 106 L.
Ed. 2d 256 (1989) (applying the same logic to
punishments that “the Constitution itself deprives
the State of the power to impose”). Such a violation
"affects the foundation of the whole proceedings." Ex

Petition for Certiorari

Page 28

parte Siebold, 100 U.S. 371, 376, 25 L. Ed. 717
(1880).
Substantive rules set forth categorical
constitutional guarantees that place certain criminal
laws and punishments altogether beyond the State’s
power to impose. It follows that when a State
enforces a proscription or penalty barred by the
Constitution, the resulting conviction or sentence is,
by definition, unlawful. Montgomery v. Louisiana,
136 S. Ct. 718, 729-30 (2016).
Therefore, "[a] conviction or sentence imposed
in violation of a substantive rule is not just erroneous
but contrary to law and, as a result,
void." Montgomery, 136 S. Ct. at 731. As held in

Montgomery:
An unconstitutional law is void, and is
as no law." A penalty imposed pursuant
to an unconstitutional law is no less
void because the prisoner’s sentence
became final before the law was held
unconstitutional. There is no
Petition for Certiorari

Page 29

grandfather clause that permits States
to enforce punishments the Constitution
forbids. To conclude otherwise would
undercut the Constitution's substantive
guarantees.

Id. (quoting Siebold, 100 U.S. at 376).
Anderson avers that his judgment in this case
was and is void as a result of the unconstitutionality
of the statutes under which he was convicted as
those statutes were applied to him.
Accordingly, the Virginia Supreme Court erred
by dismissing Anderson’s claims on procedural
grounds because the unconstitutionality of both Va.
Code § 18.2-361 and Va. Code § 18.2-366 utterly
deprived the sentencing court of jurisdiction and
should have formed a basis for relief irrespective of
state law procedural considerations.

III. Is Anderson is being subjected to cruel
and unusual punishment in violation of

Petition for Certiorari

Page 30

the Eighth Amendment to the United
States Constitution because Va. Code
Section 18.2-366 unconstitutional as
applied to the Petitioner?
In pertinent part Va. Code § 18.2-366 states:
Any person who commits adultery or
fornication with his daughter or
granddaughter, or with her son or
grandson, or her father or his mother,
shall be guilty of a Class 5 felony … For
the purposes of this section, parent
includes step-parent, grandparent
includes step-grandparent, child
includes a step-child, and grandchild
includes a step-grandchild.
The plain language of Va. Code § 18.2-366
provides no exception for cases such as that of
Anderson where both Anderson and Caitlin were
consenting adults. The unconstitutionality is also
particularly pronounced in this case because
Anderson and Caitlin were not biologically related.
Anderson incorporates by reference all
arguments previously advanced concerning Va.
Petition for Certiorari

Page 31

Code § 18.2-361. All of those arguments apply
directly to the unconstitutionality of Va. Code §
18.2-366 as well.
Because Va. Code § 18.2-366 contains no
exception for consensual act between adults in the
privacy of their own homes, for analogous reasons
to those advanced concerning Va. Code § 18.2-361,
Va. Code § 18.2-366 is also unconstitutional
pursuant to Lawrence and Obergefell and should be
declared as such.

IV. Was Anderson’s right to the effective
assistance of counsel, secured by the
Sixth Amendment to the United States
Constitution was violated when
Anderson’s trial counsel failed to
challenge the constitutionality of the

Petition for Certiorari

Page 32

statutes under which Anderson was
convicted and sentenced?
A convicted defendant’s claim that counsel’s
assistance was so defective as to require reversal of
a conviction has two components. Strickland v.

Washington, 466 U.S. 668, 687 (1984). First, the
defendant must show that counsel’s performance
was deficient. Id. This requires showing that
counsel made errors so serious that counsel was not
functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Id. Second, the
defendant must show that the deficient performance
prejudiced the defense. Id.
The performance prong of Strickland requires
a defendant to show that counsel’s representation
fell below an objective standard of reasonableness.

Lafler v. Cooper, 132 S. Ct. 1376, 1384 (2012).

Petition for Certiorari

Page 33

The second prong of the Strickland test is
often referred to as the prejudice prong under which
a petitioner is required to show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. In making this
determination, a Court hearing an ineffectiveness
claim must consider the totality of the evidence
before the judge or jury. Strickland, 466 U.S. at 695.
In this case, it should have been immediately
apparent to constitutionally competent counsel that
the acts for which Anderson was charged were
sexual acts between consenting adults. As such, it
should have been readily apparent that the holdings
of Lawrence were implicated.
There is no objectively reasonable
justification pursuant to Lafler for Anderson’s trial
counsel not challenging the constitutionality of Va.

Petition for Certiorari

Page 34

Code § 18.2-361 or Va. Code § 18.2-366 prior to
Anderson’s pleas, convictions, and sentencing such
that those issues would be formally preserved for
appeal.
Likewise, there is no objectively defensible
reason pursuant to Lafler why an appeal was not
advanced challenging the constitutionality of Va.
Code § 18.2-361 or Va. Code § 18.2-366.
Because of these failings, no challenge to the
constitutionality of Va. Code § 18.2-361 or Va. Code
§ 18.2-366 has been reviewed by any court prior to
the submission of the accompanying Petition.
Anderson’s trial counsel failed to advance any
argument challenging the constitutionality of either
Va. Code § 18.2-361 or Va. Code § 18.2-366 as those
statutes apply to consenting adults, such as
Anderson in his cases. Because there was no such
challenge, the issue was not properly preserved for

Petition for Certiorari

Page 35

appeal. Also, no appeal was advanced in Anderson’s
case challenging the constitutionality of Va. Code §
18.2-361 and Va. Code § 18.2-366 as applied to
consenting adults.
Had the constitutionality of Va. Code § 18.2361 and Va. Code § 18.2-366 been challenged as
applied to Anderson, it is likely that Anderson
would never have been convicted or incarcerated.
Both Va. Code § 18.2-361 and Va. Code § 18.2-366
as applied in this case unconstitutionally
criminalize conduct that is within the rubric of

Lawrence and it is likely that any objectively
reasonable judge would have dismissed the charges
against Anderson on that basis.
The Virginia Supreme Court erred by
dismissing this claim as not meeting either prong of
the Strickland test. In doing so, the Virginia
Supreme Court erred by not even addressing any of

Petition for Certiorari

Page 36

the substantive reasons why both Va. Code § 18.2361 and Va. Code § 18.2-366 as applied in
Anderson’s case are unconstitutional.
Anderson petitions this Court to perform the
proper analysis required under its precedent, grant
this Petition, and ultimately hold that Va. Code §
18.2-361 and Va. Code § 18.2-366 as applied in
Anderson’s case are unconstitutional.

VI.

Overall Conclusion
For all of the reasons stated herein,

Anderson’s Petition for Certiorari should be granted
and both Va. Code § 18.2-361 and Va. Code § 18.2366 as applied in this case should ultimately be held
as unconstitutional as applied to Anderson.
Dated: February 28, 2021
by
/s/ Dale R. Jensen
Dale R. Jensen
Dale Jensen, PLC
Petition for Certiorari

Page 37

606 Bull Run
Staunton, Virginia 24401
(434) 249-3874
djensen@jensenjustice.com
Attorney for Petitioner

Petition for Certiorari

Page 38

